                                                             Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

                                                                              fiecernber 14, 2004
Subject:   INFORMATION: Notification of Audit of                      Date:
           Oversight of Alcohol-Impaired Driving Programs,
           National Highway Traffic Safety Administration
           Project No. 05M3002M000

                                                                               JA-40
 From:
           DebraS. Ritt         /        ,+dL
           Assistant Inspector General for
                                                                   Reply to
                                                                   Attn of



            Surface and Maritime Programs
    To:    National Highway Traffic Safety Administrator

           As directed by the Fiscal Year 2005 House and Senate Department of
           Transportation Committees on Appropriations, the Office of Inspector General
           plans to perform an audit of Federal and state efforts to reduce alcohol-related
           injuries and fatalities. In directing this audit, the Committees expressed concern
           that despite the combined efforts of Federal and state safety officials, 2003 was
           the sixth consecutive year with no discernable progress in reducing alcohol-
           related crashes and fatalities

           The objectives of this audit are to (I) identify the defining characteristics that
           constitute alcohol-related crashes; (2) compare the scope, direction, resources,
           and expenditures of programs and activities of those states with the highest and
           lowest alcohol-related fatalities, including the use of high visibility law
           enforcement methods; and (3) determine Federal resources dedicated to h s
           effort.

           We plan to start this audit the week of December 13,2004, and will contact your
           audit liaison to schedule a formal entrance conference. We will conduct audit
           work at National Highway Traffic Safety Administration and Federal Highway
           Administration Headquarters and regional and division offices, and at selected
           state highway safety offices.
